Page 1 of 1

People v Mack | WestlawNext

;
• - M?.

WEST LAW
People v Mack
Court of Appeals of New York

September 16, 2020

35 N,Y.3d 1095

155 N.E'.iSd 798

13iN.Y.S.3d 305 (Table) (Approx. 1 page)

■

• New York .
^Official Reports .

'•

,

View National Reporter System version
35 N.Y.3d 1095,155 N.E.3d 798,131 N.Y.S.3d 305 (Table)

People v Mack
Court of Appeals of NewYork
9/18/20

CITE TITLE AS: People v Mack
2d Dept: 183 AD3d 916 (Orange)

-:

.i

APPLICATIONS IN CRIMINAL CASES FOR LEAVE TO APPEAL ,
denied 9/18/20 (Wilson, J.)

*

Copr. (C) 2021, Secretary of State, State of New York

End of
Document

WestlawNext. © 2021 Thomson Reuters

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

:

iv.i'. r THOMSON rrSVTEffS
Thomson Reuters fs:not'providing legal advice

https://nextcorrectional.westlaw.com/Document/Idac3632014961 Ieba5589cd4aa54932d/V... 7/1.3/2021

Page 1 of 2

People v Mack | WestlawNext
WE ST LAW
People v Mack
Supreme Court, Appellate Oivision, Second Department, New York

May 27, 2020

183 A.D.3d 916

122 N.Y.S.3d 547 (Mem)

2020 N.Y. Slip Op. 03032

(Approx. 3 pages)

rS) New York
Official Reports

View National Reporter System version
183 A.D.3d 916,122 N.Y.S.3d 547 (Mem), 2020 N.Y. Slip Op. 03032
**1 The People of the State of New York, Respondent,
v

Jerome Mack, Appellant.
Supreme Court, Appellate Division, Second Department, New York
14-00649, 2015-05087
May 27, 2020

CITE TITLE AS: People v Mack
HEADNOTE
Crimes
Proof of Other Crimes
Bruce A. Petito, Poughkeepsie, NY, for appellant, and appellant pro se.
David M. Hoovler, District Attorney, Goshen, NY (Robert H. Middlemiss and William C. Ghee
of counsel), for respondent.
Appeal by the defendant from a judgment of the County Court, Orange County (Jeffrey G.
Berry, J.), rendered June 1,2015, convicting him of attempted murder in the second degree,
assault in the first degree, criminal possession of a weapon in the second degree, criminal
use of a firearm in the first degree, conspiracy in the fourth degree, and criminal possession
of stolen property in the fourth degree, upon a jury verdict, and imposing sentence. The
appeal brings up for review the denial, after a hearing, of that branch of the defendant's
omnibus motion which was to suppress physical evidence.
Ordered that the judgment is affirmed.
We agree with the County Court's determination denying that branch of the defendant's
omnibus motion which was to suppress physical evidence. Contrary to the defendant's
contention, the credible evidence at the suppression hearing established that the police had
probable cause to arrest him (see People v Frederique, 137 AD3d 1161 [2016]; People v
Spann, 82 AD3d 1013 [2011]).
The defendant's contention that the evidence was legally insufficient to support his
convictions is unpreserved for appellate review (see People v Kolupa, 13 NY3d 786, 787
[2009]; People v Hawkins, 11 NY3d 484, 492 [2008]). In any event, viewing the evidence in
the light most favorable to the prosecution (see People v Contes, 60 NY2d 620, 621 [1983]),
we find that it was legally sufficient to establish the defendant's guilt beyond a reasonable
doubt. Moreover, in fulfilling our responsibility to conduct an independent review of the
weight of the evidence (see CPL 470.15 [5]; People v Danielson, 9 NY3d 342, 348 [2007]),
we nevertheless accord great deference to the jury's opportunity to view the witnesses, hear
the testimony, and observe demeanor (see People v Mateo, 2 NY3d 383, 410 [2004]; *9f7
People v Bleakley, 69 NY2d 490, 495 [1987]). Upon reviewing the record here, we are
satisfied that the verdict of guilt was not against the weight of the evidence (see People v
Romero, 7 NY3d 633 [2006]).
The defendant's contention that the verdict finding him guilty of attempted murder in the
second degree and acquitting him of conspiracy in the second degree is repugnant is
unpreserved for appellate review (see People v Alfaro, 66 NY2d 985, 987 [1985]; People v
Lamb, 164 AD3d 1470, 1472 [2018]) and, in any event, without merit (see People v Lamb,
164 AD3d at 1472; People v Richards, 164 AD3d 1378 [2018]; People v Barnette, 150 AD3d
1136, 1137 [2017]).
The County Court providently exercised its discretion in admitting evidence of the
defendant's uncharged criminal behavior. "Evidence of uncharged crimes is inadmissible
where its only purpose is to show bad character or propensity towards crime” (People v

https://nextcorrectional.westlaw.com/Document/Ile3b7ed0a0431 Ieabe06ed38fd84766d/Vi... 7/13/2021

COUNTY COURT: COUNTY OF ORANGE
STATE OF NEW YORK
IN THE MATTER OF AN ORDER TO SPRINT/NEXTEL
CORPORATION, DIRECTING DISCLOSURE OF
SUBSCRIBER INFORMATION, CALL DETAIL RECORDS,
AND CELLSTTE INFORMATION FOR CELLULAR
TELEPHONE NUMBER (917) 531-2443 and (917) 549-

COURT ORDER

|

3793
WHEREAS this Court has, upon the application of New York State Police
InvestigatorJoseph Kolek on behalf of the People of the State of New York, pursuant to
Title 18, Section 2703 of the United States Code, found, that the People have set forth
probable cause to believe Edgar Wilson and Jerome Mack committed the crimes of
,-Yfk
'
■
Attempted; Murder in the Second Degree in violation of the provisions of section 110 and
125-.25_subdiv'rsrorrlrof‘th5_New_ York-State- PerraC LawrAssaultrirrthe-First- Degree"in— ;
violation of the provisions of Section 120.10 (1) of the New York State Penal Law and other
related crimes, and that the People have set forth specific and articulable facts showing
that there are reasonable grounds to believe that the records Or information sought are
relevant and material to an ongoing criminal investigation , it is hereby
ORDERED that SPRINT/NEXTEL CORPORATION, provide to the Orange County
District Attorney's Office or New York State Police with subscriber information, and call
detail records, including but not limited to cell site information and texting information, for
a cellular telephone assigned telephone number (917) 531-2443 and (917) 549-3793 for
the days of October 1, 2014 through October 10, 2014; and
DATED: Goshen, New York

~

January 9, 2015

f-

HON.
•COU-N
H0N.
COUNTY COU.Tr JUDGE

^

i

- *
•J

■

COUNTY COURT: COUNTY OF Ofy\NGE
STATE OF NEW YORK
IN THE MATTER OF AN ORDER DIRECTING
SPRINT/NEXTEL CORPORATION TO DISCLOSE AND
PROVIDE SUBSCRIBER INFORMATION, CALL DETAIL
RECORDS, AND CELLSKE INFORMATION FOR
CELLULAR TELEPHONE NUMBERS (917) 531-2443
and (917) 549-3793
________________ __

AFFIRMATION

New York State Police Investigator Joseph Kolek, a New York State Police
Investigator in the State of New York, hereby swears and affirms under penalty of perjury
that the following is true:

1.

I am a police officer currently employed by the New York State Police
currently assigned to Troop F Headquarters, Middletown, New York.

2.

I make this affirmation in support of an Order directing SPRINT/NEXTEL

CORPORATION to disclose subscriber information and call detail records, including, but not
limited to, cell site information and texting information for all calls made over a cellular
telephone assigned telephone number (917) 531-2443 and (917) 549-3793 (hereinafter,
"TARGET PHONES"), service to which is provided by SPRINT/NEXTEL CORPORATION, for
the period of October 1, 2014 through October 10, 2014.
3.

"Cell sites" are cellular transmitting and receiving stations that work much

like radio antennas. Every call made over a cellular telephone is routed through a cell site,
and this information is stored by the cellular company's computers. Cell site information
will enable us to determine the general vicinity from where a particular cellular telephone
was or is transmitting.

I have been informed by representatives of SPRINT/ NEXTEL

CORPORATION, that they require a Court Order to release cell site information.
4.

I make this affirmation on information and belief, based upon my

conversations with the law enforcement officers assigned to the New York State Police,
Middletown, County of Orange, State of New York, who are familiar with this investigation,

f

' I

civilian witnesses, and hospital personnel from Westchester County Medical Center,
Valhalla, New York. The following provides the factual basis for this application:
5.

On October 9, 2014, at approximately 9:58 a.m., a 911 call was made

reporting a shooting at 125 Kelly Hill Road, in the Town of Mount Hope, Orange County,
New York. I am informed by Officer Kevin McGrath of the Town of Mount Hope Police
Department that he responded to the area of the shooting and located the shooting
victim, Devon Simmons on the platform of the Otisville Train Station. Officer McGrath
could see that Simmons was bleeding from his arm and torso area, which appeared to
be the result of gunshot wounds. Officer McGrath spoke with Simmons and Simmons
informed him that Simmons had just been released from the Otisville Correctional
Facility that morning, which your affiant is aware is located a short distance from 125
Kelly Hill Road, in the Town of Mount Hope, Orange County, New York. Officer McGrath
further informed your affiant that Simmons stated to him that when he left Otisville
Correctional Facility, he had school books with him, and a check in his name for
approximately $1200.00, which was given to him by Otisville Correctional Facility upon
his release. Simmons stated to Officer McGrath that he had been shot shortly after
leaving the facility in a motor vehicle with another individual. Simmons described that
vehicle to Officer McGrath as a gray vehicle, which he believed to be a Hyundai with
State of Illinois license plates. Simmons described the driver as a black male wearing a
baseball hat and a pink shirt. Simmons stated that after driving a short distance, the
driver pulled over, Simmons got out of the vehicle, and a person he knows to be Jerome
Mack got out of the vehicle-and began, shooting at him. Shortly after that conversation
i

with Officer McGrath, Simmons was flown by helicopter directly to Westchester Medical
Center, Valhalla, New York.

- --

1 i
■

■

6.

Devon Simmons was also interviewed later on October 9, 2014 by

your affiant at Westchester Medical Center. Simmons informed your affiant that as
Simmons left the Otisville Correctional Facility on October 9, 2014 at approximately 9:45
a.m

he noticed a gray motor vehicle he believed to be a Hyundai outside the facility.

Simmons described the driver of that vehicle as a black male wearing a pink t-shirt, and
a black baseball hat; which he believed had the logo of the Boston Bruins, a professional
hockey team. Simmons stated to your affiant that he believed the driver stated that he
was friends with Simmons' cousin and was there to give him a ride. Simmons stated that
he entered the vehicle and they drove off. A short time after they drove away from the
facility, the driver stated that he needed to pull over to "take a piss." Simmons stated
that when the driver stopped the vehicle, Simmons got out of the car to urinate also,
■ and at that time he noticed that the trunk of the vehicle was open. Simmons stated that
he then saw a person known to him as Jerome Mack get out of the trunk of the vehicle.
Simmons stated that he knows Jerome Mack, because they grew up in the same
neighborhood in New York City, and that they had problems between each other in the
past, including an incident when Simmons shot one of Mack's friends.

Simmons told

your affiant that Simmons and Jerome Mack were incarcerated together in the New York
State prison system, and on a previous occasion Mack stated to Simmons the "he would
see me again". Officer Kevin McGrath has also informed your affiant that he reviewed
the inmate records of Devon Simmons at Otisville Correctional Facility, where Jerome
Mack was listed as an "enemy" of Devon Simmons. Simmons also described Jerome
Mack as a black male to Officer McGrath. Investigator Kevin Chorzempa from the New
York State Police informed your affiant that he obtained Jerome Mack's pedigree
information from the New York State Department of Corrections inmate information

"s^

system, where Jerome Mack had also been previously incarcerated. A photograph of
Jerome Mack was also obtained by the New. York State Police through NYSPIN records
'i ■

of Jerome Mack's criminal history. Simmons also stated to your affiant that after he saw,
Jerome Mack get out of the trunk of the vehicle that Jerome Mack began shooting at
him with a handgun, striking him at least two times on his body. Simmons stated that
he then ran to the Otisville train station, where an individual at the train station called

911.
7.

A "BOLO" (Be on the Lookout) was issued for a gray or white Hyundai

with Illinois license plates, containing two black males. Your affiant was informed by
Senior Investigator Patrick Beyea who was informed by Henrietta Vandeweert, a
. dispatcher with the New York State Police, that subsequent to the "BOLO", she was
informed at approximately 10:47 a.rn. Trooper Scott Kalleberg from the New York State
Police in Monroe, New York, observed a Hyundai with Illinois license plates being
operated traveling eastbound on State ’Route 17, Orange County, New York and then
get on the New York State Thruway heading southbound. Trooper Kalleberg was able to
observe the license plate number of the gray Hyundai; N90-7649. The license plate
number was relayed by Trooper Kalleberg to the New York State Police headquarters in
Middletown, New York. The license plate was checked through Department of Motor
Vehicle records, which revealed that the vehicle was a rental vehicle from a company
called Rental Car Finance, located in Des Plaines, Illinois. New York State Police Senior
Investigator Thomas Boylan informed your affiant that he contacted Rental Car Finance
who told him that the vehicle had been rented directly from a rental car company
"Thrifty Dollar" at 148 West 83rd Street, in New York, New York. "Thrifty Dollar" was
contacted and a representative informed the New York State Police that the Hyundai;

,-.i

■

license plate number N90-7649, Illinois plates, had been rented by an Edgar Wilson,
who when renting the vehicle, had given his address as 50 West 97th Street, apartment
5-J, New York New York, and a phone number of (718) 612-0609. . Additional law
enforcement investigation revealed the carrier for that.cellular telephone number is AT &
T WIRELESS SERVICES. Senior Investigator Beyea contacted Troop NYC of the New
York Police and relayed the above information. Investigators from the New York State
Police then went to "Thrifty Dollar" and obtained a photograph from "Thrifty Dollar" of
the person who rented the gray Hyundai.

That photograph was of a black male,

wearing a pink shirt.
8.

A second team of New York State Police Investigators went to the

address that was provided to "Thrifty Dollar", 50 West 97th Street, New York, New York.
New York State Police Senior Investigator Simon Ocampo informed Senior Investigator
Beyea who informed your affiant that while waiting outside 50 West 97th Street, the New
York State Police Investigators observed Jerome Mack with a female, later identified as
Elizabeth Garcia. The New York State Police Investigators identified: Jerome Mack
through the photograph of him previously obtained. At that time, Elizabeth Garcia had a
black bag in her possession and she consented to the State Police Investigators looking
'&£. /dvigincj

inside the bag. Inside the bag was a separate bag containing personal items to Devon
Simmons. Elizabeth Garcia stated to the Investigators that Jerome Mack had called her
at approximately 11:28 a.m on October 9, 2014, from the number (917) 531-2443,
which further law enforcement investigation revealed to be a cellular telephone provided
by Sprint/Nextel Corporation.

Elizabeth Garcia also told Investigators that she has a

second cellular telephone number of (917) 549-3793. After Jerome Mack was arrested
and processed, he also gave (917) 549-3793 as his cellular telephone number.

Further

f.

I *

s

law enforcement investigation revealed that number to also be provided by Sprint/Nextel
Corporation. Subsequent to the phone call Elizabeth Garcia received from Jerome, Mack,
she met him thereafter at Edgar Wilson's apartment at 50 West 97th Street, and Jerome
Mack then, gave her the bag and asked her to hold it for him. Additionally, at
approximately the same time Edgar Wilson was located in the vicinity of 50 West 97th
Street, New York, New York, and he had paperwork on his person at that time bearing
the name Devon Simmons. Furthermore, a white Hyundai, Illinois registration number
N90-7649, was located in the vicinity of 50 West 97th Street, New York, New York.

9.

A New York State Department of Motor Vehicle record was

obtained for Edgar Wilson, which revealed a driver's license containing the address of 50
West 97th Street, apartment 5-J, New York, New York. New York State Police
Investigators knocked on the door of 50 West 97th Street, apartment 5-J, and a woman
who identified herself as Donna Brown answered the door. Donna Brown stated that
Edgar Wilson is her son and that they both live at 50 West 97th Street, apartment 5-J,
New York, New York.

10.

Cell site information will enable us to determine the general vicinity

from where the target cell phone was transmitting, so that we may determine where the
suspect or any possible accomplice was located at or near the time of the shooting on or
about October 9, 2014 . Additionally, it will enable us to determine the general vicinity
where any planning for these crimes took place. Also, cell site information will enable us to
corroborate the location of the various meetings between Jerome Mack and Edgar Wilson.
Additionally, the information sought may reveal the identities of other witnesses relevant to
the investigation. Because the exact day of the cellular calls between Mack and Wilson is
■0ctober-10;

4
l-j*y

:

k prior to *e incident, through October 10, 2014. It is reasonable to believe
2014, one weet
and evidence regarding the conspiracy to
this information may lead to relevant information
murder Devon Simmons.
Based on the foregoing, probable cause

11.
Jerome

has been demonstrated that

Mack and Edgar Wilson committed the above-mentione

d crimes for which they are

and articulable facts have been presented to show that
under investigation, and specific
reasonable grounds to believe that the information sought in this applicadon is
there are
relevant and material to the current criminal investigation.
12.

r

k.

No previous application

for the relief sought herein has been made before

any Court or Justice.
,
_____---- ------ -------------- —
iT^ft^er requested that SPRINT/NBCTEL CORPORATION provide the
aforemen

tioned records to the Office of the District Attorney of Orange County, New

County of Orange, State of New York so that the
York or to the New York State Police,
information may be used immediately by members of the Orange County District
Attorney's Office, the New York State Police or their agents. It is therefore requested
that this application be granted, and the annexed order be issued.
DATED: January 9, 2015
Goshen, New York
Respectfully submitted,
i

jfiv. Joseph Kolek
New York State Police
Snuary, 2015.

Sworn before me on this

la'

HON.
County

pf-Kigy a bshf. y

judge • Qi

r co’i.TrljuuGE

COUNTY COURT: COUNTY OF ORANGE
STATE OF NEW YORK
IN RE THE APPLICATION FOR A SEARCH WARRANT FOR A
CELLULAR MOBILE PHONE THAT IS IDENTIFIED AS A
SAMSUNG GALAXY 5 S, MODEL NUMBER SM-G900A
SERIAL NUMBER R38F31FK87KTHAT IS CURRENTLY IN THE
POSSESSION OF THE NEW YORK STATE POLICE
MIDDLETOWN BARRACKS, LOCATED IN THE
TOWN OF WALLKILL,
COUNTY OF ORANGE, STATE OF NEW YORK

X

-X

Pursuant to Section
690.35 of NYS CPL
STATE OF NEW YORK
COUNTY OF ORANGE
TOWN OF WALLKILL
INVESTIGATOR JOSEPH C. KOLEK, being duly sworn, deposes and says:
r . . 1;nlamtJheapPIlcantherein'andI am a public servant of the kind specified in
Criminal Procedure Law Section 690.05(1), my title being Investigator.and bem*
employed by the New York State Police for 12 years.
°
2. That I do hereby state that there is reasonable cause to believe that
property of a kind and character as described in section 690.10 of the Criminal
0rTiTne^W' f° Wlt: pr0perty that provides evidence that a crime was committed
that a particular person committed a crime; and that will be found in cellular
Number R38F31FK87k! “ *
^ $ M°del Number ™-G900A, Serial
3 I make this affidavit in support of ah application for a search warrant to
below
?Hmen,tlCTd T1Ular m°blle Ph°"e a"d “ seiM the Property set forth
below. This affidavit is based upon information and belief, the sources of said

ide™being conversat,ons had »,th ppi1SUPPORTING ALLEGATIONS OF FACT
4. On October 9, 2014, at approximately 9:58 AM, a 911 call was made
eportmg a shooting at 125 Kelly Hill Road in the Town of Mount Hope, Orange
ounty, New York. I am informed by Officer Kevin McGrath of the Town of Mount
ope Police Department that he responded to the area of the shooting and located

the shooting victim, Devon Simmons, on the platform of the Otisville Train Station.
Officer McGrath observed that Simmons was bleeding from the arm and torso area,
which appeared to be the result of gunshot wounds. Officer McGrath spoke with
Simmons, and Simmons informed him that he had just been released from the
Otisville Correctional Facility, which your affiant is aware is just a short distance
away from 125 Kelly Hill Road in the Town of Mount Hope, Orange County, New
York. Officer McGrath further informed your affiant that Simmons stated to him that
he was shot shortly after leaving the Correctional Facility in a motor vehicle with
another individual. Simmons described that vehicle to Officer McGrath as a gray
vehicle, which he believed to be a Hyundai with State of Illinois license plates.
Shortly after that conversation with Officer McGrath, Simmons was flown by
helicopter to Westchester Medical Center in Valhalla, New York.
5. On October 9, 2014, Linterviewed Devon Simmons at Westchester Medical
Center. Simmons informed me that when he left the Otisville Correctional Facility
on October 9, 2014 at approximately 9:45 AM, he observed a gray motorvehicle that
he believed to be a Hyundai outside of the facility. Simmons described the driver of
that vehicle as a black male wearing a a pink shirt. Simmons stated to me that he
believed the driver told him he was a friend of Simmon's’ cousin, and was there to
give him a ride. Simmons said that he entered the vehicle and they drove off.
Shortly after driving away from the facility, the driver stated that he needed to pull
over to "take a piss." Simmons stated that when the driver stopped the vehicle,
Simmons got out of the car to urinate also, and that at that time, he observed that
the truck of the vehicle was open. Simmons stated that he then saw a person known
to him as Jerome Mack get out of the trunk of the vehicle. Simmons stated that he
knows Jerome Mack because they grew up in the same neighborhood in New York
City, and that Simmons had testified against Mack in a previous criminal proceeding.
Simmons stated to me that after he saw Jerome Mack get out of the trunk of the
vehicle. Mack started shooting at him with a handgun, striking Simmons two times
in his body. Simmons told me that he ran to the Otisville train station, where an
individual called 911. As a result, a "BOLO” (Be On the Lookout) was issued for a
gray Hyundai with Illinois license plates, containing two black males.
6. On October 9, 2014,1 was advised by Henrietta Vanderweert, a dispatcher
with the New York State Police, that subsequent to the issuance of the BOLO, at
10:47 AM, Trooper Scott Kalleberg from the New York State Police barracks in
Monroe, New York, observed a Hyundai with Illinois license plates being operated in
an easterly direction of State Route 17 in Orange County, New York and occupied by
two black males. Trooper Kalleberg observed the Hyundai continue traveling onto
the New York State Thruway heading southbound. Trooper Kalleberg was able to
observe the license plate number of the gray Hyundai as N907649. Trooper
Kalleberg relayed the license plate number to the New York State Police
headquarters in Middletown, New York. The license plate number was checked
through Department of Motor Vehicle Records, which revealed that the Hyundai was
a rental vehicle rented by a company called Rental Car Finance, located in Des._ _
Plaines, Ill'iTToisi
'
:

7. On October 9, 2014, Senior Investigator Thomas Boylan, New York State
Police, informed your affiant that he contacted Rental Car Finance, who told him
that the vehicle had been rented directly from a rental car company called “Thrifty
Dollar" at 148 West 83'd Street, New York, New York. "Thrifty Dollar" was contacted
and a representative informed the New York State Police that the Hyundai bearing
Illinois license plate number N907649 had been rented by an Edgar Wilson, who
when renting the vehicle, identified himself with a New YorirState driver’s license
showing an address of 50- West 97th Street; Apartment 5-J, New York, New York.
Investigators from Troop NYC of the New York State Police were contacted, and the
above information was relayed: to them. Investigators from the New York State
Police went to the "Thrifty Dollar” at 148 West 83rd Street and obtained a
photograph from surveillance video of the person that rented the gray Hyundai. The
photograph shows a black male wearing a pink shirt.
8. On October 9, 2014, investigators from the New York State Police went to
50 West 97th Street, New York, New York. I am informed by Senior Investigator
Simon Ocampo of the New York State Police that while waiting outside the location,
investigators observed Jerome Mack. The investigators identified Jerome Mack
through a photograph of him that had been previously obtained. He was taken into
custody. A short time later, Edgar Wilson was observed at the location and taken
into custody by State Police investigators. At the time they were taken into custody,
both Jerome Mack and Edgar Wilson had in their possession personal items
belonging to Devon Simmons. At the time he was taken into custody, Edgar Wilson
also had in his possession a Samsung Galaxy S 5 cellular phone, Model NumberSMG900A, Serial Number R38F31FK87K.
9. Based on the foregoing, there is reasonable cause to believe that the person
identified as Edgar Wilson has committed the crime of attempted murder in the second
degree. Additionally, it is reasonable to believe that a search of the Samsung Galaxy S 5
Cellular phone. Model Number SM-G900A, Serial Number R38F31FK87Kthatis
currently in the possession of the New York State Police will reveal the presence of the
text messages that were sent to and received on October 9, 2014. It is also reasonable
to believe that a search of the Samsung Galaxy S 5, Model Number SM-G900A, Serial '
Number R38F31FK87K will reveal additional text messages as well as additional
phone call contact information that may indicate if additional calls were made to or
received from the phone number. It is aiso reasonable to believe that evidence of past
communications may also be present, dating back to October, 2014.
10. Based on my personal experience, I have learned that text message and
certain call information can be stgred and retrieved from a cellular mobile phone
device. I am also informed by members of the New York State Police Computer Crime
Unit that cellular phones have certain memory and phone book features that allow
for the storage of phone numbers and other data that show recently received and
made p_ho.n.e_caIls..In addition, mem.oiy-t.eat-u-Pe-s-aj-so-lheq-u-entl-y-^'S-pIa-y-t'he-dutes—

I

and times of the calls that were made, received, or missed. Missed calls refer to calls
that were made to the particular;phone but that were not picked up. Phone
numbers may also be stored on the cell phone’s phone book or contact feature, and
the contact information stored on the phone may also list the name of the person or
organization associated with the particular phone number. In addition to phone
calls, the memory features may also display whether any text messages were ma e
or received by the phone during the same period of time. I have also learned that the
caller information and phone numbers relating to recently made, received, or
missed calls as. well as text messages can be identified and retrieved, by searching
the cell phone’s memory and storage features. In addition to a cursory search using
a phone's keypad, I have also learned that an electronic analysis and search of the
cell phone’s memory features can be conducted in a laboratory setting, such as is
done for the search of a computer hard drive or memory device, and that call
information and data can be printed and reproduced by converting or copying the
data onto another device.
11. Based on my personal experience, I know that the Samsung Galaxy S 5 is
called
"smart phone," which can access the Internet. Internet access allows the
a so
user to obtain information and research, such as information about a specific
location, such as a correctional facility, provide maps of geographical areas, as well
as driving directions from one location to another, making it a useful tool to carry
out illegal activity. I also know from my personal experience that the Samsung
Galaxy S 5 is equipped with a digital camera, and that persons engaged in criminal
activity often photograph themselves involved in such activity.
12. Application is therefore made to search the Samsung Galaxy S 5, Model
Number SM-G900A, Serial Number R38F31FK87K for the following, including the
address book, date book, email communication, text messaging, call history, including
but not limited to incoming and outgoing calls, missed calls, dropped calls, cell site
frequency information, the telephone number assigned to this cellular telephone, and
other information that identifies this phone, pages and any other electronic
communications, Internet sites visited, and related equipment including but not
limited to auxiliary batteries, and stored information, data, and images contained on or
in said communication equipment including but not limited to stored photographs,
digital video, names and numbers and recorded messages; and electronic security
equipment and devices that may be contained on said boost mobile phone. A review of
that data and stored information is likely to reveal records of phone calls and text
messages that were made from said Samsung Galaxy S 5 or received, as well as the
dates, times, and length of such phone calls and text messages that were made on or
sent or received on October 9, 2014 and during the period of October 1, 2014
through October 9, 2014. Application is also made to retrieve such data and
information, analyze such data and information, and, as needed, to do so in a secure
laboratory setting, and to print or otherwise reproduce such data and information
by converting or copying such data or information onto the storage of another
device.

t•

!

WHEREFORE, your deponent requests that this Court issue a warrant of search and
seizure in the form annexed, authorizing the search of a Samsung Galaxy S 5 Cellular
Phone/Model Number SM-G900A, Serial Number R38F31FK87K that is identified as
belonging to Edgar Wilson and that is currently in the possession of the New York
State Police at the State Police Middletown Barracks located in the Town of Wallkill,
Orange County, New York, and1 directing that should such property or evidence or
any part thereof be found, that itbe seized and retained and stored by the New York
State Police and, if so ordered,he made accessible to the court together with such
other and further relief as this court may deem just and proper.
p.

/I
'l

C n/i^

Investigator Joseph C. Kolek
Applicant
Sworn to before me this

j
F

i
;
;

V •

1
1

